Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


THE OFFICE OF THE NATIONAL
  COORDINATOR FOR HEALTH
 INFORMATION TECHNOLOGY’S
  OVERSIGHT OF THE TESTING
    AND CERTIFICATION OF
ELECTRONIC HEALTH RECORDS



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                           Daniel R. Levinson
                                           Inspector General

                                              August 2014
                                             A-06-11-00063
                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                       EXECUTIVE SUMMARY

 The Office of the National Coordinator for Health Information Technology’s oversight of
 the authorized testing and certification bodies did not fully ensure that electronic patient
 information in the currently available electronic health record applications was secure and
 protected.

WHY WE DID THIS REVIEW

To improve the quality and value of American health care, the Federal Government promotes the
use of certified electronic health record (EHR) applications by health care professionals and
hospitals (providers). As an incentive, the Federal Government is paying providers who attest to
the “meaningful use” of EHRs. As of December 2013, the Centers for Medicare & Medicaid
Services had paid more than $19 billion in incentive payments to more than 340,000 providers
who have attested to using EHRs. To receive incentive payments, providers must use EHRs that
have been certified by an authorized testing and certification body (ATCB) in accordance with
Federal security standards. The U.S. Department of Health and Human Services (HHS), Office
of the National Coordinator for Health Information Technology (ONC), oversees the testing and
certification process for EHRs. Together with ONC and with ONC’s approval, the National
Institute of Standards and Technology (NIST) developed test procedures for the ATCBs to use
when determining whether EHRs met the Federal security standards.

Certification assures health care providers that the EHR has the capabilities needed, including
appropriate record security and protection, for providers to participate in the Medicare and
Medicaid EHR Incentive Programs. If insecure systems have been certified by an ATCB,
providers and patients may have a false sense of security and assurance. We have identified risks
related to ATCBs’ certifying EHRs with inadequate security and privacy controls and for which
health care providers have received incentive payments. As of August 30, 2013, 3,590 certified
EHRs were available to health care providers, 95 percent of which were certified by ATCBs
under the Temporary Certification Program for Health Information Technology (Temporary
Program).

The objectives of this review were to assess whether (1) ONC’s oversight of ATCBs ensured that
electronic patient information was secure and protected, (2) the ATCBs’ standards and
procedures for testing and certifying EHRs met NIST test procedure requirements, and (3) NIST
test procedures were sufficient to secure and protect electronic patient information.

BACKGROUND

On June 24, 2010, HHS established the Temporary Program for health information technology to
test and certify EHRs using the temporary program’s criteria. Once tested and certified, EHRs
meet the definition of Certified EHR Technology and may be used by providers to help them
qualify for incentive payments under the Medicare and Medicaid EHR Incentive Programs.

Federal regulations outline security standards to which the ATCBs must adhere when testing and
certifying EHRs. At a minimum, all certified EHRs must meet security requirements related to


ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   i
seven information technology areas: access control, emergency access, automatic log-off, audit
log, integrity, authentication, and general encryption.

WHAT WE FOUND

ONC’s oversight of the ATCBs did not fully ensure that test procedures and standards could
adequately secure and protect electronic patient information contained in EHRs. Specifically,
ONC did not ensure that the ATCBs:

    •   developed procedures to periodically evaluate whether certified EHRs continued to meet
        Federal standards and

    •   developed a training program to ensure that their personnel were competent to test and
        certify EHRs and to secure proprietary or sensitive EHR information.

The ATCBs’ standards and procedures for testing and certifying EHRs met all NIST test
procedure requirements that ONC approved. However, those NIST test procedures were not
sufficient to ensure that EHRs would adequately secure and protect patient health information; in
particular, the procedures allowed ATCBs to certify EHRs that demonstrated the use of a single-
character password during testing. In addition, the NIST test procedures did not address
common security issues, such as, but not limited to, password complexity and/or logging
emergency access or user privilege changes.

WHAT WE RECOMMEND

To ensure that each patient’s health information in EHRs is secure and protected, we recommend
that ONC require the ATCBs to:

    •   develop procedures to periodically evaluate whether certified EHRs continue to meet
        Federal standards and

    •   develop a training program to ensure that their personnel are competent to test and certify
        EHRs and to secure proprietary or sensitive EHR information.

We also recommend that ONC work with NIST to strengthen EHR test procedure requirements
so that ATCBs can ensure during testing that EHR vendors incorporate a baseline set of security
and privacy features into the development of EHRs to address common security issues.

ONC COMMENTS AND OUR RESPONSE

In written comments on our draft report, ONC stated that ATCBs are no longer active in the
ONC Certification Program and that testing and certification functions are now performed by
separate entities in the ONC Health Information Technology Certification Program. ONC also
stated that it currently is using new certification criteria, the 2014 Edition EHR Certification
Criteria, that have “strengthened test procedures for common security and privacy features for
inclusion in EHRs.”


ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)      ii
We do not agree that the 2014 Edition EHR Certification Criteria sufficiently address our
security concerns regarding the Temporary Program.




ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   iii
                                                    TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objectives ............................................................................................................................1

           Background ..........................................................................................................................1
                 Health Information Technology for Economic and Clinical Health Act .................1
                 Temporary Certification Program for Health Information Technology ..................2

           How We Conducted This Review........................................................................................3

FINDINGS .......................................................................................................................................3

           ONC’s Oversight of Authorized Testing and Certification Bodies
            Needs Improvement ..........................................................................................................4
                 Insufficient Procedures for Periodic Evaluation of Electronic Health Record
                   Applications ..........................................................................................................4
                 Insufficient Training Program Specifically Related to Electronic Health
                   Record Test Procedures and Security of Records .................................................5

           Authorized Testing and Certification Body Standards Met Requirements but National
            Institute of Standards and Technology Test Procedures Needed Strengthening ..............6
                  Standards and Procedures of Authorized Testing and Certification Bodies
                    Met Requirements .................................................................................................6
                  Test Procedures Need Strengthening .......................................................................6

           Conclusion ...........................................................................................................................6

RECOMMENDATIONS .................................................................................................................7

ONC COMMENTS .........................................................................................................................7

OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................................7

OTHER MATTERS.........................................................................................................................8

APPENDIXES

           A: FEDERAL AND INTERNATIONAL REQUIREMENTS ON THE TESTING
              AND CERTIFICATION OF ELECTRONIC HEALTH RECORDS ...........................9

           B: AUDIT SCOPE AND METHODOLOGY ..................................................................11

           C: ONC COMMENTS......................................................................................................12


ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)                                                   iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

To improve the quality and value of American health care, the Federal Government promotes the
use of certified electronic health record (EHR) applications by health care professionals and
hospitals (providers). The Medicare and Medicaid EHR Incentive Programs provide financial
incentives for the meaningful use of certified EHR technology. To demonstrate meaningful use,
providers must meet certain measurement thresholds that range from recording patient
information as structured data to exchanging summary care information. EHR incentive
programs include three stages with increasing requirements for participation. 1 As of December
2013, the Centers for Medicare & Medicaid Services had paid more than $19 billion in incentive
payments to more than 340,000 providers who have attested to using EHRs. To receive
incentive payments, providers must use EHRs that have been certified by an authorized testing
and certification body (ATCB) in accordance with Federal security standards.

The U.S. Department of Health and Human Services (HHS), Office of the National Coordinator
for Health Information Technology (ONC), oversees the testing and certification process for
EHRs. Certifying EHRs that have inadequate security may increase the risk for unauthorized
individuals to gain access to patient health information or to submit improper claims. We have
identified risks that are related to ATCB certification of EHRs with inadequate security and
privacy controls and for which health care providers have received incentive payments. As of
August 30, 2013, 3,590 certified EHRs were available to health care providers, 95 percent of
which were certified by ATCBs under the Temporary Certification Program for Health
Information Technology (Temporary Program).

OBJECTIVES

Our objectives were to assess whether (1) ONC’s oversight of ATCBs ensured that electronic
patient information was secure and protected, (2) the ATCBs’ standards and procedures for
testing and certifying EHRs met National Institute of Standards and Technology (NIST) test
procedure requirements, and (3) NIST test procedures were sufficient to secure and protect
electronic patient information.

BACKGROUND

Health Information Technology for Economic and Clinical Health Act

On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
2009 (Recovery Act), P.L. No. 111-5. Title XIII of Division A and Title IV of Division B of the
Recovery Act are cited together as the Health Information Technology for Economic and
Clinical Health Act (HITECH Act). The HITECH Act established ONC, an entity within the

1
  To meaningfully use certified EHRs, providers must use numerous EHR functions defined in Federal regulations,
including functions meant to improve health care quality and efficiency, such as computerized provider order entry,
electronic prescribing, and the exchange of key clinical information.



ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)                         1
Office of the Secretary for HHS, as the principal Federal entity responsible for coordinating the
effort to implement a nationwide health information technology (health IT) infrastructure that
allows for the use and exchange of health information in an electronic format that protects
patient information from unauthorized access. The HITECH Act includes provisions to promote
the meaningful use of health IT and authorizes incentive payments to providers.

Temporary Certification Program for Health Information Technology

Section 3001(c)(5) of the Public Health Service Act (PHSA) (as amended by the HITECH Act)
requires the National Coordinator to establish a program to certify that EHR technology
complies with the certification criteria adopted by the Secretary of HHS in the Standards and
Certification Criteria Final Rule (Final Rule). The Temporary Certification Program was in
effect from June 24, 2010, to October 4, 2012. The Permanent Certification Program (Permanent
Program) came into effect after the sunsetting of the Temporary Program. 2 These programs
govern the authorization and operations of bodies that certify EHRs in accordance with ONC
certification criteria. 3

In addition, ONC promulgated its 2011 and 2014 Edition EHR Certification Criteria, to which
ATCBs are to certify EHRs. 4 The Temporary and Permanent Certification Programs require
ATCBs to abide by the principles of proper conduct. ONC obtained a signed formal agreement,
Agreement to Adhere to the Principles of Proper Conduct for ONC-ATCBs (Principles of Proper
Conduct), from six ATCBs authorized under its certification programs: The Certification
Commission for Health Information Technology, Drummond Group, SLIGlobal, ICSA Labs,
InfoGard, and SureScripts.

The Principles of Proper Conduct required the ATCBs to, among other things, operate (1) a
certification program in accordance with the International Organization for Standardization and
International Electrotechnical Commission (ISO/IEC) Guide 65:1996, General requirements for
bodies operating product certification systems, and (2) a testing program in accordance with
ISO/IEC 17025:2005, General requirements for the competence of testing and calibration
laboratories. 5 The Principles of Proper Conduct also require ATCBs to use test procedures
approved by ONC.

In addition, ATCBs test EHRs and certify that they meet the certification criteria at 45 CFR
part 170, subpart C, which include several security standards (45 CFR §§ 170.302(o)–(u)). To
be certified, an EHR must, at a minimum, meet security standards related to the following:

2
    75 Fed. Reg. 36158 (June 24, 2010) and 76 Fed. Reg. 1262 (January 7, 2011).
3
 Five of the six ATCBs in the Temporary Program have been approved to test and certify EHRs under the
Permanent Program, and EHRs certified during the Temporary Program are valid in the Permanent Program.
However, starting in 2014, providers and hospitals must use EHRs that are certified under the 2014 Edition EHR
Certification Criteria to achieve meaningful use. See 45 CFR § 170.102 Nt. (2012).
4
    75 Fed. Reg. 44590 (July 28, 2010) and 77 Fed. Reg. 54163 (Sept. 4, 2012).
5
    ISO and IEC develop international standards through technical committees established by the organizations.



ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)                    2
access control, emergency access, automatic log-off, audit log, integrity, authentication, and
general encryption. Together with ONC and with ONC’s approval, NIST developed test
procedures for the ATCBs to use when determining whether EHRs met the Federal security
standards.

After an EHR is tested and certified, the ATCB informs ONC, which lists the EHR on its
Certified Health IT Product List (Product List). Eligible providers may then qualify for incentive
payments under the Medicare and Medicaid EHR Incentive Programs by using an EHR on the
Product List. Certification assures health care providers that the EHR has the capabilities
needed, including appropriate record security and protection, for providers to participate in the
Medicare and Medicaid EHR Incentive Programs.

As of August 30, 2013, 3,590 certified EHRs were listed on the Product List. Under the
Temporary Program, 3,403 EHRs (95 percent) were certified; the remaining 187 were certified
under the Permanent Program. EHRs certified under the Temporary Program are still available
to health care providers.

Appendix A contains more details about Federal and international requirements related to the
Temporary Program.

HOW WE CONDUCTED THIS REVIEW

We focused our audit on ONC’s procedures for oversight of the ATCBs. We also assessed the
ATCBs’ procedures for testing EHRs and certifying that EHRs meet certain Federal
requirements and NIST Special Publications (SP). We judgmentally selected 30 EHRs and
reviewed their ATCBs’ testing documentation. We also reviewed certain ISO/IEC security
requirements related to the security of records and to training at five of the six ATCBs. 6

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                                    FINDINGS

ONC’s oversight of the ATCBs did not fully ensure that electronic patient information in EHRs
was secure and protected. Specifically, ONC did not ensure that the ATCBs:

      •    developed procedures to periodically evaluate whether certified EHRs continued to meet
           Federal standards and


6
    One of the six ATCBs (SureScripts) did not certify any EHRs; therefore, we excluded it from our review.



ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)                 3
      •   developed a training program to ensure that their personnel were competent to test and
          certify EHRs and to secure proprietary or sensitive EHR information.

Regulations for the Temporary and Permanent Certification Programs require that ATCBs use
testing procedures approved by ONC to evaluate conformance of EHRs to each of ONC’s
requirements. 7 ONC worked with NIST to develop these test procedures. 8 The ATCBs’
standards and procedures for testing and certifying EHRs met all NIST test procedure
requirements; however, those NIST test procedures were not sufficient to ensure that EHRs
would adequately secure and protect patient health information; in particular, the procedures
allowed ATCBs to approve EHRs that demonstrated the use of a single-character password
during testing. In addition, the NIST test procedures did not address common security issues,
such as, but not limited to, password complexity and logging emergency access or user privilege
changes.

ONC’S OVERSIGHT OF AUTHORIZED TESTING AND CERTIFICATION BODIES
NEEDS IMPROVEMENT

The HITECH Act requires ONC to develop a nationwide health IT infrastructure that allows for
the electronic use and exchange of information and that ensures that each patient’s health
information is secure and protected, in accordance with applicable law.

Insufficient Procedures for Periodic Evaluation of Electronic Health Record Applications

The ATCB must periodically evaluate the EHRs to confirm that they continue to conform to
Federal standards (ISO/IEC Guide 65:1996 § 13.4).

Although the ATCBs were required to comply with the Principles of Proper Conduct, which
required compliance with ISO/IEC Guide 65, three of the five ATCBs did not have procedures in
place to periodically evaluate EHRs to determine whether they continued to conform to Federal
standards. ONC officials informed us that although ISO/IEC Guide 65 required periodic
evaluations, ONC did not enforce that requirement during the Temporary Program. ONC
officials stated that ONC was developing procedures for periodically evaluating EHRs. 9
Without periodic evaluations, ONC could not assure providers that a certified EHR continued to
conform to Federal standards. For example, after its initial certification, an EHR could be
modified to conduct fraudulent activities, such as classifying a medical procedure as more
expensive than it actually was (“upcoding”).



7
    45 CFR §§ 170.423(e) and 170.523(h).
8
  These procedures were approved by ONC in 75 Fed. Reg. 47817 (August 9, 2010). ONC approved procedures are
independent of Federal Information Security Management Act of 2002 (FISMA) standard Federal Information
Processing Standards No. 200 (FIPS-200) and the associated FISMA guidance Special Publication 800-53.
9
 ONC officials stated that the requirement for following the procedures would be included in the Permanent
Program.



ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)                4
Insufficient Training Program Specifically Related to Electronic Health Record Test
Procedures and Security of Records

The Principles of Proper Conduct require ATCBs to maintain a training program that is
consistent with ISO/IEC standards; those standards include documented procedures and training
requirements to ensure that ATCB personnel are competent to test and certify Complete EHRs or
EHR Modules or both (ISO/IEC 17025:2005 § 5.2.1).

ONC did not require the ATCBs to maintain a training program consistent with ISO/IEC
standards. That training program would have ensured that ATCB personnel were competent to
test and certify EHRs in IT security topics specifically related to the NIST test procedures the
ATCBs used. While one of the five ATCBs we reviewed trained its EHR testers appropriately,
the remaining four did not train their EHR testers in IT security specifically related to NIST’s
EHR test procedures. Without this training, the ATCBs could not ensure that testers were
knowledgeable about the security-related requirements they were testing. ONC officials
explained that they require ATCBs to pass the American National Standards Institute audit and
National Voluntary Laboratory Accreditation Program audit, which require some form of IT
security training for testers and which all five ATCBs passed. However, ONC could not provide
documentation to support that those audits required EHR testers to be trained in IT security
topics specifically related to the NIST test procedures the ATCBs used. Without training
specifically related to NIST test procedures, ONC could not ensure that testers were
knowledgeable about the security-related requirements they were testing.

The Principles of Proper Conduct required ATCBs to operate a testing and certification program
consistent with ISO/IEC standards. ISO/IEC standards state that all records 10 must be secure
(17025:2005 § 4.13.1.3).

ONC did not require the ATCBs to train personnel in IT security to ensure that all records were
secure in accordance with ISO/IEC standards. The records used during testing could have
contained proprietary or sensitive information related to EHR testing and certification.
Specifically, one of the five ATCBs used the wired equivalent privacy (WEP) protocol to
encrypt its wireless network during meetings in rented office space. The WEP suffers from
weaknesses that enable attackers to easily decipher data moving over the wireless network and is
not an acceptable encryption method. 11 The ATCB was unaware that the wireless network used
WEP for encryption because it rented the office space only when it needed to hold meetings and
exchange test data stored at remote sites using the wireless network. We are concerned that an
ATCB that uses WEP to secure its wireless network may not have sufficient IT security
knowledge to certify EHRs and to protect sensitive or proprietary data.




10
     Records may be in any medium, such as hard copy or an electronic format (ISO/IEC 17025:2005 § 4.13.1.2).
11
     NIST SP 800-97, Establishing Wireless Robust Security Networks: A Guide to IEEE 802.11i.


ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)                   5
AUTHORIZED TESTING AND CERTIFICATION BODY STANDARDS MET
REQUIREMENTS BUT NATIONAL INSTITUTE OF STANDARDS AND
TECHNOLOGY TEST PROCEDURES NEEDED STRENGTHENING

Standards and Procedures of Authorized Testing and Certification Bodies Met
Requirements

The ATCBs’ standards and procedures for testing and certifying EHRs met all the requirements
of the NIST test procedures adopted by ONC.

Test Procedures Need Strengthening

The PHSA § 3004 (added by the HITECH Act) requires ONC to define the standards,
implementation guides, and certification criteria for evaluating how EHRs conform to criteria for
protecting electronic health information through implementing appropriate technical capabilities.
ONC’s standards, found at 45 CFR § 170.302, include several relating to security. 12 Regulations
for the Temporary and Permanent Certification Programs require that ATCBs use testing
procedures approved by ONC to evaluate conformance of EHRs to each of ONC’s
requirements. 13 ONC worked with NIST to develop these test procedures. 14

ONC’s approved NIST test procedures did not ensure that certified EHRs would secure patient
information. For example, the test procedures allowed ATCBs to approve EHRs that
demonstrated the use of a single-character password during testing. In addition, the NIST test
procedures did not address common security issues, such as, but not limited to, password
complexity and logging emergency access or user privileges changes. Without test procedures to
address such common issues, ATCBs could continue to certify EHRs with vulnerabilities that
could pose a significant risk to protection of EHR-related information.

CONCLUSION

The process of certifying EHRs is designed, in part, to give providers the confidence to know
that patient health information is secure and protected. Our audit revealed vulnerabilities with
the Temporary EHR certification program. These vulnerabilities could allow hackers to
penetrate EHR systems, thereby compromising the integrity, confidentiality, and availability of
patient information stored in and transmitted by a certified EHR. 15




12
     45 CFR §§ 170.302(o)–(u)).
13
     45 CFR §§ 170.423(e) and 170.523(h).
14
     These procedures were approved by ONC in 75 Fed. Reg. 47817 (August 9, 2010).
15
  The use of a certified EHR for meaningful use attestation applies to all stages of meaningful use; therefore, all
vulnerabilities related to certified EHRs also apply to all stages of meaningful use.


ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)                         6
                                        RECOMMENDATIONS

To ensure that each patient’s health information in EHRs is secure and protected, we recommend
that ONC require the ATCBs to:

    •   develop procedures to periodically evaluate whether certified EHRs continue to meet
        Federal standards and

    •   develop a training program to ensure that their personnel are competent to test and certify
        EHRs and to secure proprietary or sensitive EHR information.

We also recommend that ONC work with NIST to strengthen EHR test procedure requirements
so that the ATCBs can ensure that EHR vendors incorporate common security and privacy
features into the development of EHRs.

                                           ONC COMMENTS

In written comments on our draft report, ONC stated that ATCBs are no longer active in the
ONC Certification Program and that testing and certification functions are now performed by
separate entities in the ONC Health IT Certification Program: Authorized Certification Bodies
(ACBs) and Accredited Testing Laboratories. ONC also stated that although ONC ATCBs were
not required to conduct surveillance activities during the Temporary Certification Program,
ACBs are required to conduct surveillance, and ONC issued guidance on the subject in July
2013. In addition, ACBs must be accredited by the ONC-Approved Accreditor, which is the
American National Standards Institute, as a condition of applying to become an ACB. ONC also
stated that the 2014 Edition EHR Certification Criteria “strengthened test procedures for
common security and privacy features for inclusion in EHRs.”

Regarding our recommendation that ONC work with NIST to strengthen EHR test procedure
requirements to ensure that EHR vendors incorporate into EHRs common security and privacy
features, ONC stated that “the adopted criteria strive to set certain common baselines yet, at the
same time, aim to allow EHR technology developers the flexibility to include and demonstrate
innovative techniques to protect health information.” ONC added that “it is the ONC’s intention
to work with health care providers to encourage and educate them on the use of multi-factor
authentication in instances where its use can provide added protections to patient data.” ONC’s
comments are included in their entirety as Appendix C.

                        OFFICE OF INSPECTOR GENERAL RESPONSE

We do not agree that the 2014 Edition EHR Certification Criteria sufficiently address our
security concerns regarding the Temporary Certification Program. For example, the 2014
criteria do not address common security issues that we identified in our review of the Temporary
Certification Program, such as password length and complexity or logging emergency access or
user privilege changes.




ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)     7
We agree with ONC’s statement that “the adopted criteria strive to set certain common
baselines.” However, ONC’s baseline does not address certain specific security concerns and
industry best practices. For example, multifactor authentication has been recommended by NIST
since the publication of NIST SP 800-53 in February 2005. However, ONC still did not require
multifactor authentication in the 2014 criteria. Therefore, we continue to recommend that ONC
strengthen EHR Test Procedure requirements to address such issues to ensure providers have
EHR systems that have adequate security and privacy features.

                                           OTHER MATTERS

Neither the Temporary Certification Program nor the Permanent Certification Program directly
addresses ONC’s authority to remove a certified EHR from the Product List absent evidence of
improper conduct by the ATCB. 16 Therefore, if an EHR is exploited and used to conduct
malicious activities, ONC is not able to remove the EHR, even temporarily, from the Product
List to prevent further purchases of it. In order to assure the public that certified EHRs on the
Product List meet current security and privacy requirements, ONC would need to have the ability
to decertify and remove obsolete, unsupported, or less secure EHRs on the basis of its own
assessment of them or to otherwise have procedures to notify the public.

In addition, none of the five ATCBs we reviewed verified whether the EHRs that they certified
were marketed for the specific operating systems for which they were tested. For example, even
though an EHR was tested using Microsoft Windows, it could have been marketed as having
been tested and certified under another operating system platform (e.g., iOS, Android, or Linux).
Without standards requiring testing for specific operating systems, EHRs could have been used
for operating systems that had an entirely different set of vulnerabilities, increasing the risks to
the security and privacy of protected health information.




16
     See 45 CFR §§ 170.470 and 170.570.


ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)      8
       APPENDIX A: FEDERAL AND INTERNATIONAL REQUIREMENTS ON THE
        TESTING AND CERTIFICATION OF ELECTRONIC HEALTH RECORDS

FEDERAL REQUIREMENTS FOR ONC

Section 3001(C) of the Recovery Act states that ONC must review Federal health IT investments
to ensure that (1) Federal health IT programs are incorporating privacy and security protections
for the electronic exchange of an individual’s personally identifiable health information and that
(2) security methods ensure appropriate authorization and electronic authentication of health
information and include technologies or methodologies for rendering health information
unusable, unreadable, or indecipherable.

Section 3001(b) of the Recovery Act states: “The National Coordinator shall perform the duties
under subsection (c) in a manner consistent with the development of a nationwide health
information technology infrastructure that allows for the electronic use and exchange of
information and that—(1) ensures that each patient’s health information is secure and protected,
in accordance with applicable law.”

Section 3004(b)(1) of the PHSA requires “the Secretary of Health and Human Services to adopt
an initial set of standards, implementation specifications, and certification criteria … to enhance
the interoperability, functionality, utility, and security of health information technology.”

NIST SP 800-97, Establishing Wireless Robust Security Networks: A Guide to IEEE 802.11i,
states that the WEP suffers from cryptographic weaknesses that enable attackers with readily
available software tools to decipher data.

INTERNATIONAL REQUIREMENTS FOR THE AUTHORIZED TESTING AND
CALIBRATION LABORATORIES 17

ISO/IEC 17025:2005 § 4.1.5, states that the testing laboratory must have policies and procedures
to ensure the protection of its customers’ confidential information and proprietary rights,
including procedures for protecting the electronic storage and transmission of results.

ISO/IEC 17025:2005 § 4.13.1.3, states that all records 18 must be held secure and in confidence.
Section 4.13.1.4 states that the laboratory must have procedures to protect and back up records
stored electronically and to prevent unauthorized access to or amendment of these records.

ISO/IEC 17025:2005 § 5.2.1, states that personnel performing specific tasks must be qualified on
the basis of appropriate education, training, experience, or demonstrated skills, as required. The
personnel responsible for the opinions and interpretation included in test reports should have, in
addition to having the appropriate qualifications, training, experience, and knowledge of the

17
  According to ONC’s Principles of Proper Conduct, the ATCBs must comply with these international
requirements.
18
     ISO/IEC 17025:2005 § 4.13.1.2 states that records may be in any medium, such as hard copy or electronic format.



ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)                      9
testing carried out, knowledge of the general requirements and an understanding of the
significance of deviations from the normal use of the items, materials, or products concerned.

ISO/IEC Guide 65:1996 § 13.4, states that the certification body must periodically evaluate
EHRs to confirm that they continue to conform to the standards.




ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)    10
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We focused our audit on ONC’s procedures for monitoring the ATCBs and assessed the ATCBs’
effectiveness in testing and certifying EHRs. We limited our review to controls that were in
effect at the time of our onsite visit to ONC and the ATCB offices. We did not review any of the
187 EHRs certified under the Permanent Program.

We conducted our fieldwork from January 24 through June 28, 2012, at ONC in Washington,
DC, and at five ATCB offices: The Certification Commission for Health Information
Technology (Chicago, Illinois), Drummond Group (Nashville, Tennessee), SLIGlobal (Denver,
Colorado), ICSA Labs (Mechanicsburg, Pennsylvania), and InfoGard (San Luis Obispo,
California).

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal requirements, NIST SPs, the Principles of Proper Conduct,
        ISO/IEC Guides 17025:2005 and 65:1996, and industry best practices;

    •   reviewed ATCBs’ procedures related to violations/complaints, training, and the security
        of records in accordance with ISO/IEC Guides 17025:2005 and 65:1996;

    •   interviewed ONC officials responsible for monitoring ATCBs to help determine whether
        the ATCBs complied with the Principles of Proper Conduct;

    •   reviewed ONC documentation for monitoring ATCBs to determine whether the ATCBs
        complied with the Principles of Proper Conduct;

    •   interviewed ATCB testers and other individuals about their procedures for testing and
        certifying EHRs;

    •   judgmentally selected 30 EHRs and reviewed supporting documentation for each; and

    •   discussed our findings with ONC.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   11
                                 APPENDIX C: ONC COMMENTS




ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   12
ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   13
ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   14
ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   15
ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   16
ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   17
ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   18
ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   19
ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   20
ONC’s Oversight of the Testing and Certification of Electronic Health Records (A-06-11-00063)   21
